 DEPARTMENT OF HOMELAND SECURITY

         Office of Inspector General


       The State of Indiana’s Management of
         State Homeland Security Grants
       Awarded During Fiscal Years 2002 and
                        2003
                                     (Redacted)




  Notice: The DHS OIG has modified this report for public release. The modifications were
  made pursuant to the Freedom of Information Act, 5 U.S.C.§552. A review under the
  Freedom of Information Act will be conducted upon request.




                                                                   Office of Inspector General


                              Office of Audits
OIG-06-19                                                  December 2005
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published as part of our
DHS oversight responsibilities to promote economy, effectiveness, and efficiency within the
Department.

The attached report presents the publicly releasable results of the audit of the State of Indiana’s
management of State Homeland Security Grants awarded during Fiscal Years 2002 and 2003. We
contracted with the independent public accounting firm Foxx & Company to perform the audit. The
contract required that Foxx & Company perform its audit according to generally accepted
government auditing standards and guidance from the Office of Management and Budget and the
Government Accountability Office. Foxx & Company’s report identified three areas where State
management of the grant funds could be improved. Specifically, the State needs to (1) follow its
approved preparedness strategy or justify deviations from its strategy, (2) improve program
management by awarding funds to sub-grantees timely, adequately monitoring sub-grantee activities,
and reporting progress to the Office for Domestic Preparedness as required, and (3) ensure that
payments to sub-grantees are supported with adequate documentation. Foxx & Company is
responsible for the attached auditor’s report dated October 31, 2005, and the conclusions expressed
in the report. Because some of the information and results from this audit were determined by DHS
to be security sensitive, we issued a separate “For Official Use Only” version of this report.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.




                                              Richard L. Skinner
                                              Inspector General
October 31, 2005

Office of Inspector General
U.S. Department of Homeland Security
Washington, D.C.

Foxx & Company performed an audit of the State of Indiana’s management of the
Department of Homeland Security, Office for Domestic Preparedness, State Homeland
Security Grants for Fiscal Years 2002 and 2003. The audit was performed in accordance
with our Task Order dated August 27, 2004.

This report presents the results of the audit that DHS said are releasable to the public. It
includes recommendations to help improve the State’s management of the FY 2002, FY
2003 Part I, and FY 2003 Part II grant programs. These grant programs are commonly
referred to as first responder grant programs. Because some of the information and results
from the audit were determined by DHS to be potential issues of national security, a “FOR
OFFICIAL USE ONLY” version of the report is also being issued.

A draft of this report was submitted to the Office for Domestic Preparedness for review and
comment on August 24, 2005. ODP provided written comments on the findings and
recommendations in the draft report. We have included a synopsis of their comments and
our responses at the end of each finding. In addition, ODP’s entire response is included as
an attachment to the report.

Our audit was conducted in accordance with applicable Government Auditing Standards,
2003 revision. The audit was a performance audit as defined by Chapter 2 of the Standards
and it included a review and report of program activities with a compliance element.
Although the audit report comments on costs claimed by the State, we did not perform a
financial audit, the purpose of which would be to render an opinion on the agency’s
financial statements or the funds claimed in the Financial Status Reports submitted to the
Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. If you have any questions, or
if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company




Martin W. O’Neill
Partner
TABLE OF CONTENTS/ACRONYMS
I.        Executive Summary ...........................................................................................................1

II.       Background ........................................................................................................................4

III.      Results of the Audit ...........................................................................................................6

          A.         Approved Preparedness Strategy Not Followed ......................................................6
          B.         Improved Program Management Would Have Enhanced Preparedness ...............10
          C.         Funds Disbursed Without Adequate Supporting Documentation..........................18

Appendices                ..........................................................................................................................22

          A.         Objectives, Scope, and Methodology ....................................................................23
          B.         Schedule of Questioned Costs ...............................................................................25
          C.         Schedule of Cash on Hand.....................................................................................26

Management Response to the Draft Report ..............................................................................27

          Department of Homeland Security/Office of State and
                Local Government & Preparedness .......................................................................28

Report Distribution......................................................................................................................35

Acronyms
          BSIR            Biannual Strategy Implementation Reports
          CTASC           Counter-Terrorism and Security Council
          CAPR            Categorical Assistance Progress Report
          CBRNE           Chemical, Biological, Radiological, Nuclear, or Explosive
          DHS             Department of Homeland Security
          EMA             Emergency Management Agency
          EPW             Exercise Planning Workshop
          FY              Fiscal Year
          HazMat          Hazardous Material
          IDHS            Indiana Department of Homeland Security
          ISIP            Initial Strategy Implementation Plans
          ODP             Office for Domestic Preparedness
          OIG             Office of Inspector General
          SAA             State Administrative Agency
          SDPP            State Domestic Preparedness Program
          SEMA            State Emergency Management Agency
          SHSGP           State Homeland Security Grant Program
          SLGCP           Office of State and Local Government Coordination and Preparedness
          WMD             Weapons of Mass Destruction
DHS                                                     Office for Domestic Preparedness
                                                                         State of Indiana


                           I. EXECUTIVE SUMMARY
Foxx & Company completed an audit of the State of Indiana’s management of the Department
of Homeland Security (DHS), Office for Domestic Preparedness (ODP) State Homeland
Security Grants to determine whether the State (1) effectively and efficiently implemented the
first responder grant programs, (2) achieved the goals of the programs, and (3) spent funds in
accordance with grant requirements. The goal of the audit was to identify problems and
solutions that would help the State of Indiana prepare for and respond to terrorist attacks. (See
Appendix A for additional details on the objectives, scope, and methodology of this audit.)

DHS/ODP awarded about $48 million to the State of Indiana from the Fiscal Year (FY) 2002
State Domestic Preparedness Program, and from Parts I and II of the FY 2003 State Homeland
Security Grant Program. Indiana’s State Emergency Management Agency (SEMA) managed
the programs, commonly referred to as first responder grant programs. During the audit, we
visited 18 sub-grantees. SEMA awarded these sub-grantees about $7.2 million from the FY
2002 and FY 2003 first responder grant programs. The audit was conducted between
November 2004 and April 2005.

Although this audit included a review of costs claimed, we did not perform a financial audit of
those costs. Accordingly, we do not express an opinion on Indiana’s financial statements or the
funds claimed in the Financial Status Reports submitted to DHS/ODP.

While Indiana attempted to conscientiously manage the first responder grant programs, it
did not follow its DHS/ODP-approved strategic plan and did not aggressively manage the
programs. Frequent changes in the grantee’s management team through April 2005
adversely affected the State’s management of the programs. Additionally, the magnitude
of the grantee’s responsibilities, inherent in the receipt of the first responder grants, was
inconsistent with the number of staff assigned to manage the programs. The State made
some payments to sub-grantees without adequate supporting documentation and did not
submit progress reports to DHS/ODP in accordance with Federal requirements. As a
result, DHS/ODP had no assurances of the efficiency or effectiveness of Indiana’s
progress in preparing for terrorist incidents.

While this report addresses the State of Indiana’s management of the three grant programs, we
also identified potential opportunities for improved oversight by the DHS/ODP staff. The
Office of Inspector General (OIG) will consider reporting these opportunities under separate
cover when the results of other state audits are available.

The body of this report provides detailed discussions of the following findings.

A. Approved Preparedness Strategy Not Followed

Indiana did not follow the DHS/ODP-approved Indiana Domestic Preparedness
Strategy: Three-year Plan dated February 15, 2002. Although the deviations from the



                                                                                           1
DHS                                                    Office for Domestic Preparedness
                                                                        State of Indiana


plan might have been justifiable by SEMA, the State did not document the reasons for the
deviations or ask for DHS/ODP’s approval. SEMA also did not:

     •   Evaluate its progress in achieving the goals and objective established in the approved
         plan, or

     •   Allocate funds consistent with the priorities implied in the plan.

B. Improved Program Management Would Have Enhanced Preparedness

SEMA needed to more aggressively manage the grant programs by (1) awarding funds to
sub-grantees in a timely manner, (2) adequately monitoring the activities of the sub-grantees,
(3) submitting all periodic progress reports to DHS/ODP as required, and (4) ensuring that the
progress reports submitted were consistent with DHS/ODP’s program guidelines. Indiana’s
management of the programs resulted in:

     •   Only 73 percent of the funds provided by the FY 2002 and FY 2003 programs being
         used by the State as of December 2004 to prepare for terrorist incidents;

     •   Sub-grantees having cash on hand because SEMA did not obtain required assurances
         from sub-grantees that the time elapsing between the transfer and disbursement of
         fund advances would be minimized;

     •   Sub-grantees procuring equipment, totaling $260,718, that had not been approved by
         SEMA;

     •   Equipment costing $696,940 being procured by sub-grantees but not being used as
         intended;

     •   Most of the counter-terrorist response kits, procured by SEMA starting in December
         2002, not being distributed to first responders as of January 2005;

     •   Semi-annual progress reports not always being submitted as required; and

     •   Progress reports submitted that did not include all of the status information required by
         DHS/ODP program guidelines.

C. Funds Disbursed Without Adequate Supporting Documentation

Indiana awarded critical infrastructure protection grant funds, totaling $278,857, to police
departments for overtime costs without adequate supporting documentation. As a result, the
State cannot be certain that the costs claimed were for overtime incurred by the police
departments while protecting critical infrastructures as intended through the grant program.



                                                                                          2
DHS                                                   Office for Domestic Preparedness
                                                                       State of Indiana


                                            *****

The audit resulted in recommendations that, if implemented, would improve the State’s
management of the first responder grant programs. The report recommends that the
Director, DHS/ODP, require the Executive Director, SEMA to:

     •   Document and implement procedures for:

         o evaluating the State’s progress in achieving the February 2002 strategic
           plan’s goals and objectives, and either redirect spending in line with the plan
           or revising the plan based upon the progress achieved;

         o monitoring sub-grantee activities; and

         o ensuring that reimbursements to sub-grantees are supported with adequate
           documentation;

     •   Review the State’s plans and justifications for first responder grants subsequent
         to FY 2003, and make appropriate adjustments considering the State’s progress
         in achieving the goals and objectives of the February 2002 strategic plan;

     •   Improve the State’s grant program management by expediting the awards to first
         responders, aggressively monitoring sub-grantee activities, and complying with
         Federal progress reporting requirements;

     •   Disallow the $260,718 used by sub-grantees to procure unapproved equipment,
         and the $696,940 cost of the equipment used by the sub-grantees for unapproved
         purposes; and

     •   Disallow the $278,857 reimbursements to sub-grantees for claimed, but
         unsupported, overtime costs for protecting critical infrastructures, and determine
         if other reimbursements for critical infrastructure protection should be
         disallowed because adequate supporting documentation did not exist.




                                                                                             3
DHS                                                            Office for Domestic Preparedness
                                                                                State of Indiana


                                       II. Background
The Office for Domestic Preparedness (ODP)1 was transferred from the Department of Justice
to Department of Homeland Security in March 2003. DHS/ODP is responsible for enhancing
the capabilities of state and local jurisdictions to plan for, prepare for, prevent, respond to, and
mitigate the consequences of incidents of domestic terrorism. During fiscal years (FY) 2002
and FY 2003, DHS/ODP provided grant funds to aid public safety personnel (first responders)
to provide specialized training/exercises and acquire equipment necessary to safely respond to
and manage terrorist incidents involving weapons of mass destruction (WMD). First
responders include firefighters, police, paramedics, and others. The FY 2002 and FY 2003
grants were commonly referred to as first responder grants.

First Responder Grant Programs
FY 2002 State Domestic Preparedness Program (SDPP): This program provided financial
assistance to each of the Nation’s states, U.S. Territories, the District of Columbia, and the
Commonwealth of Puerto Rico. DHS/ODP provided financial assistance for (1) the purchase of
specialized equipment to enhance the capability of state and local agencies to respond to
incidents of terrorism involving the use of WMD; (2) the protection of critical infrastructure;
(3) costs related to the design, development, conduct, and evaluation of WMD exercises; and,
(4) administrative costs associated with the implementation of the statewide domestic
preparedness strategies.

FY 2003 State Homeland Security Grant Program -- Part I (SHSGP-I): This program
provided financial assistance for (1) the purchase of specialized equipment to enhance the
capability of state and local agencies to prevent and respond to incidents of terrorism involving
the use of chemical, biological, radiological, nuclear, or explosive (CBRNE) weapons; (2) the
protection of critical infrastructure and prevention of terrorist incidents; (3) costs related to the
design, development, conduct, and evaluation for CBRNE exercises; (4) costs related to the
design, development, and conduct of state CBRNE training programs; and, (5) costs associated
with updating and implementing each state’s homeland security strategy.

FY 2003 State Homeland Security Grant Program – Part II (SHSGP-II): This program
supplemented funding available through FY 2003 for the SHSGP to enhance first responder
preparedness. SHSGP II funds were also available to mitigate the costs of enhanced security at
critical infrastructure facilities during the period of hostilities with Iraq and future periods of
heightened threat.

The State of Indiana received about $48 million from these three grant programs. The funded
activities and amounts are shown in the following table.

1In March 2004, the Secretary of Homeland Security consolidated ODP with the Office of State and Local
Government Coordination to form the Office of State and Local Government Coordination and
Preparedness (SLGCP). For the purposes of this report, we are using ODP in discussing the first responder
grant programs.


                                                                                                        4
DHS                                                           Office for Domestic Preparedness
                                                                               State of Indiana


                                                                  Grant Programs
               Funded Activities                 FY 2002        FY 2003                 FY 2003
                                                  SD PP         S HSG P-I              S HSG P-I I
     Equipment Acquisition Funds                $ 6,116,000   $    7,999,000              N/A
     Exercise Funds                             $   284,000   $      2,000,000            N/A
     Training Funds                                 N/A       $        600,000            N/A
     Planning and Administration Funds              N/A       $        800,000            N/A
     First Responder Preparedness Funds             N/A              N/A         $        26,168,000
     Critical Infrastructure Protection Funds       N/A              N/A           $       4,026,000
                          Totals                $ 6,400,000   $     11,399,000   $        30,194,000


Indiana State Emergency Management Office (SEMA)
SEMA, as grantee, was responsible for the State of Indiana’s administration of the
DHS/ODP first responder grants. SEMA was the coordinating agency for the State on all
matters relating to the mitigation of, preparation for, response to, and recovery from all
emergencies/disasters resulting from terrorist incidents. SEMA’s Antiterrorism Division
was established in May 2002 with three staff members. The Division managed the
FY 2002 and FY 2003 grants until January 2004.

In January 2004, Indiana reorganized SEMA and created the Homeland Security
Directorate. The State established a new management team in conjunction with the
reorganization. The team consisted of seven staff members. The Homeland Security
Directorate was one of three directorates within SEMA. The Administrative Services
Branch supported the Homeland Security Directorate by providing fiscal, human
resources, procurement, and other management services for SEMA.

In February 2005, in conjunction with the appointment of a new Executive Director, the
Governor announced the formation of the Indiana Department of Homeland Security
(IDHS). As of March 2005, the management team for the Homeland Security Directorate
consisted of only a Grants Director and a Field Director. An Administrative Assistant
and a full-time intern supported these two Directors.




                                                                                                       5
DHS                                                     Office for Domestic Preparedness
                                                                         State of Indiana


                             III. Results of the Audit
DHS/ODP awarded about $48 million to the State of Indiana from the FY 2002 State Domestic
Preparedness Program, and from Parts I and II of the FY 2003 State Homeland Security Grant
Program. Indiana’s State Emergency Management Agency (SEMA) managed the first
responder grant programs.

While Indiana attempted to conscientiously manage the first responder grant programs, it
did not follow its DHS/ODP-approved strategic plan and did not aggressively manage the
programs. Frequent changes in the grantee’s management team through April 2005
adversely affected the State’s management of the programs. Additionally, the magnitude
of the grantee’s responsibilities, inherent in the receipt of the first responder grants, was
inconsistent with the number of staff assigned to manage the programs. The State made
some payments to sub-grantees without adequate supporting documentation and did not
submit progress reports to DHS/ODP in accordance with Federal requirements. As a
result, DHS/ODP had no assurances of the efficiency or effectiveness of Indiana’s
progress in preparing for terrorist incidents.

While this report addresses the State of Indiana’s management of the three grant programs, we
also identified potential opportunities for improved oversight by the DHS/ODP staff. The
Office of Inspector General (OIG) will consider reporting these opportunities under separate
cover when the results of other State audits are available.

A. Approved Preparedness Strategy Not Followed
SEMA did not follow the DHS/ODP-approved Indiana Domestic Preparedness Strategy:
Three-year Plan dated February 15, 2002. The Plan provided the basis for the State’s
applications for the FY 2002 and FY 2003 first responder grants. Although the
deviations from the plan might have been justifiable by SEMA, the State did not
document the reasons for the deviations or ask for DHS/ODP’s approval.

1. Goals and objectives not evaluated

SEMA did not evaluate the State’s progress in achieving the goals and objectives
established in the approved strategic plan. Without evaluating the progress achieved,
SEMA did not have a basis for justifying future equipment, training, and exercise needs
for local jurisdictions and first responders (sub-grantees).

The receipt of funds under ODP’s FY 2002 and FY 2003 first responder grants was contingent
upon the approval of a needs assessment and domestic preparedness strategy (strategic plan).
Indiana designed the strategic plan to assist the State and local governments to prepare for and
recover from terrorist incidents. The plan contained a reasonable methodology for assessing the
threat, vulnerability, capability, and prioritized needs of the State. The plan considered input
from local jurisdictions and first responders and included a baseline of the State’s current


                                                                                           6
DHS                                                           Office for Domestic Preparedness
                                                                               State of Indiana


capabilities. Based on this input and the State’s current capabilities, the plan (1) prioritized
equipment, training, exercise, and technical assistance needs; (2) defined the goals and
objectives for the domestic preparedness program; and (3) established an evaluation plan for
measuring the accomplishments toward meeting the goals and objectives.

Although neither SEMA nor DHS/ODP could provide supporting documentation, SEMA
officials claimed, and the DHS/ODP Preparedness Officer agreed, that the plan had been
approved. SEMA used the strategy in the approved plan in its application packages for the
FY 2002 and FY 2003 grants.

State officials said they had not evaluated progress in accomplishing the strategic plan’s
goals primarily because of changes in SEMA executive and grants management staff
positions and a shortage of staff members. In addition, the State’s emphasis for using
first responder grant funds had been on the procurement of equipment and getting funds
to all of the counties. The emphasis was not on evaluations of the goals and objectives.

DHS officials acknowledged that three different gubernatorial administrations had
existed in Indiana from the fall of 2003 through January 2005. In each instance, the new
Governor installed new emergency management team and operational staff members.

SEMA officials told us that they performed very little monitoring of sub-grantee
activities. SEMA did not require sub-grantees to submit periodic progress reports and did
not routinely conduct site visits. A system for tracking sub-grantee activities also did not
exist. We requested copies of the sub-grantee grant agreements, approved worksheets,2
and receipts for equipment purchased by sub-grantees. The grant agreements were
provided. Some worksheets were also provided, but very few receipts were available
from SEMA. Without progress reports, site visits, and receipts for equipment purchased,
SEMA was not in a position to evaluate the State’s overall progress in accomplishing the
approved goals and objectives of the strategic plan.

2. Funds not allocated consistent with the strategic plan

SEMA did not allocate the grant funds as implied by the priorities established in the
State’s approved strategic plan. SEMA emphasized the procurement of equipment.

The approved strategic plan stated that seven first response disciplines would be trained
and equipped to respond to a terrorist incident. The first responder disciplines were: fire
services, HazMat, emergency medical services, law enforcement, public works, public
health, and the Emergency Management Agency (EMA).

SEMA officials said significant executive-level staff changes, the SEMA reorganization
in January 2004, and a desire to award funds to all county EMAs in order to show that

2   SEMA used Equipment Budget Detail Worksheets to approve sub-grantee spending plans.



                                                                                              7
DHS                                                      Office for Domestic Preparedness
                                                                          State of Indiana


progress was being made were the primary reasons why funds were not provided
consistent with the strategic plan.

       Conclusions

SEMA did not allocate the FY 2002 and FY 2003 grant funds in accordance with the
State’s approved strategy. Although the deviations from the plan might have been
justifiable by SEMA, the State did not document the reasons for the deviations or ask for
DHS/ODP’s approval.

Although SEMA expended much effort in acquiring equipment for the local jurisdictions
and first responders, SEMA did not evaluate its accomplishments toward achieving the
goals and objectives included in the approved three-year strategic plan. Accordingly, the
State did not know how much improvement had been made at the local level in preparing
for terrorist incidents and had little basis for justifying future first responder grant funds.

       Recommendations

We recommend that the Director, DHS/ODP require the Executive Director, SEMA, to:

   1. Document and implement procedures for evaluating the State’s progress in
      achieving the plan’s goals and objectives, and either redirect spending to be in
      line with the plan or revise the plan based upon the progress achieved; and,

   2. Review the State’s plans and justifications for first responder grants subsequent to
      FY 2003 to determine if adjustments are necessary considering the results of the
      State’s evaluation of the progress made in achieving the goals and objectives
      included in the February 2002 strategic plan.

       Management’s Response

DHS officials concurred in principle that Federal funding should adhere to various
strategic and operational plans. However, the officials said it is important to note that the
SLGCP FY 2002, FY 2003, and FY 2003 supplemental grant awards were limited
primarily to equipment grant awards to specifically address CBRNE hazards (i.e.,
chemical, biological, radiological/nuclear, and explosive) following the events of 9/11.
According to DHS officials, such allowable expenses therefore, by definition, satisfied
the requirement of these grant awards to enhance the preparedness and response
capabilities of first responders to address a CBRNE incident. Additionally, to ensure the
appropriateness of such purchases, the State Administrative Agency (SAA) for Indiana
was required to submit an overall spending budget as well as equipment detail budget
worksheets to ODP for review and approval.

The officials said the 2004 Indiana State Homeland Security Strategy (approved by ODP
on February 18, 2004) and the Indianapolis Urban Area Homeland Security Strategy


                                                                                              8
DHS                                                   Office for Domestic Preparedness
                                                                       State of Indiana


(approved by ODP on March 22, 2004) superseded the Indiana Domestic Preparedness
Strategy: Three-Year Plan, dated February 15, 2002.

However, recognizing that expenditures should follow the approved preparedness
strategy on a state and local level, ODP developed a methodology to establish a web-
based tracking system, which was instituted in 2004. The Biannual Strategy
Implementation Reports (BSIRs), along with Initial Strategy Implementation Plans
(ISIPs), was designed to track expenditures with identified goals or objectives within the
2004 Indiana State Homeland Security Strategy and Indianapolis Urban Area Homeland
Security Strategy. Both strategies are presently in the process of being updated to align
them with the seven national priorities in the National Preparedness Goal and National
Preparedness Guidance. In addition, the DHS officials said that SLGCP will ensure that
all BSIR reports are submitted in a timely manner, and reviewed for corrections to make
certain that expenditures are strategy driven. Subsequent SLGCP grants will, according
to DHS officials, have a direct nexus to stated goals or objectives within the updated and
approved state homeland and urban areas security strategies.

       Auditor’s Additional Comments

DHS’s comments did not address Recommendations A.1 and A.2. These
recommendations called for the Director, DHS/ODP, to require the State to document
and implement procedures for evaluating the State’s progress in achieving the goals and
objectives approved in the strategic plan approved in February 2002. The grant awards
for FY 2002 and FY 2003 were contingent on the approval of the strategic plan. The plan
included timelines for the accomplishment of specific goals and objectives for preparing
the State against terrorist attack. In addition, ODP required the State to report on the
status of the State’s achievement of the goals and objectives in the semi-annual progress
reports.

The DHS officials only commented on the State’s plans and DHS requirements for
tracking expenditures with the goals and objectives identified in the 2004 Indiana State
Homeland Security Strategy and Indianapolis Urban Area Homeland Security Strategy.
The officials did not address the need for an assessment of the State’s achievements
toward the goals and objectives approved in the February 2002 plan. An assessment of
these accomplishments could have an impact on the goals and objectives established in
the FY 2004 strategies. Accordingly, we continue to believe that an assessment of the
State’s progress in achieving the February 2002 approved goals and objectives is needed
for the State to have a basis for justifying equipment, training, and exercise needs for
local jurisdictions and first responders for FY 2004 and beyond.

Consequently, we consider Recommendations A.1 and A.2 to be unresolved.




                                                                                           9
DHS                                                             Office for Domestic Preparedness
                                                                                 State of Indiana


B.       Improved Program Management Would Have Enhanced
         Preparedness
SEMA needed to more aggressively manage the grant programs by (1) awarding funds to
sub-grantees in a timely manner, (2) adequately monitoring the activities of the sub-
grantees, (3) submitting all periodic progress reports to DHS/ODP as required, and
(4) ensuring that the progress reports submitted were consistent with DHS/ODP’s
program guidelines.

1. SEMA did not award grant funds in a timely manner

SEMA had not drawn down all of the grant funds awarded by DHS/ODP from the
FY 2002 and FY 2003 programs. Nearly $13 million (27 percent of the awards) was still
in the Federal account as of December 7, 2004. Further, SEMA did not award the funds
drawn down (73 percent) to the local jurisdictions and first responders in a timely
manner. SEMA awarded the grant funds to the sub-grantees almost a year after the funds
were available to SEMA. If this pattern continues, SEMA will have increasing difficulty
in utilizing its share of first responder grant funds awarded by DHS/ODP for future years.
Ultimately, if the grant funds are not used before the end of the respective performance
periods, and extensions are not approved, Indiana could lose the opportunity to use the
funds to enhance the State’s preparedness for terrorist incidents. DHS/ODP Program
Guidelines for the FY 2002 and FY 2003 grants established a performance period not to
exceed 24 months.

As of December 2004, SEMA had not drawn down all of the grant funds awarded by
DHS/ODP under the FY 2002, FY 2003 Part I, or FY 2003 Part II programs. The table
below shows the award dates and the performance periods for these programs.

                        Grant             Date of          Original Performance Period
                       Program            Award              From               To
                   FY 2002                09/27/02          08/01/02        07/31/043
                   FY 2003 Part I         05/09/03          04/01/03         03/31/05
                   FY 2003 Part II        06/19/03          05/01/03         04/30/05


As shown below, about 27 percent of the funds awarded to Indiana remained in the
Federal account as of December 7, 2004, even though the grant performance periods
were about to expire.




3
    A 6-month extension to January 31, 2005 was approved in July 2004.



                                                                                              10
DHS                                                           Office for Domestic Preparedness
                                                                               State of Indiana


              Amount           FY 2002       FY 2003 Part I    FY 2003 Part II     Total
       Awarded                 $ 6,400,000    $ 11,399,000        $ 30,194,000   $ 47,993,000
       Drawn Down              $ 4,833,571    $   6,844,335       $ 23,326,932   $ 35,004,838
       Balance                 $ 1,566,429    $   4,554,665       $ 6,867,068    $ 12,988,162
       Balance as % of award     24%              40%               23%            27%


On December 1, 2004, SEMA requested a 6-month performance period extension for the
FY 2002 grant program, which was due to expire on January 31, 2005. DHS/ODP
approved the extension to July 31, 2005.

On February 15, 2005, SEMA requested 6-month extensions for the FY 2003 Part I and
Part II performance periods which were due to expire on March 31, 2005, and April 30,
2005, respectively. DHS/ODP approved the request for Part I, but as of April 1, 2005,
had not approved the requested extension for Part II. The approved extension for Part I
was to September 30, 2005.

The State’s request letters for the grant performance period extensions stated that SEMA
was working with the localities, state agencies, and vendors to expend the grant funds,
but delays were being experienced. The letter for the FY 2003 Part I extension also
stated that SEMA was working closely with other agencies and local governments to
develop a statewide strategy to hasten the disbursement of funds.

For the 73 percent (about $35 million) drawn down, SEMA did not make awards to the
sub-grantees in a timely manner. For the sub-grantees visited, an average of 11 months
had passed between the date the program funds were obligated in the Federal account and
the date the awards were made to the sub-grantees.

SEMA officials attributed the delays to “significant executive level organizational
changes.” In the extension request letters, SEMA said executive level changes, coupled
with the accompanying process and policy shifts, slowed the ability of the agency to fully
expend the funds by the grant expiration dates.

SEMA officials also said that some delays occurred because DHS/ODP changed its
procedures for reviewing and approving Equipment Budget Detail Worksheets.
According to SEMA, DHS/ODP officials decided to not review the individual worksheets
upon receipt. Instead, the officials held the worksheets until “about a million dollars
worth had been accumulated” before the reviews and approvals were completed. In this
regard, for the more recent grant programs, DHS/ODP changed the review requirements
and DHS/ODP does not now have to review and approve the worksheets.

In the July 2004 site visit report, the DHS/ODP Preparedness Officer recognized that
SEMA had experienced delays for several reasons, including:

   •     Tardiness on the part of local jurisdictions to develop spending plans and to
         identify equipment, training, and exercise needs,


                                                                                                11
DHS                                                   Office for Domestic Preparedness
                                                                       State of Indiana


   •   State and local regulations related to bids and purchases, and
   •   Equipment shortages from vendors.

If SEMA does not obligate the funds for award to first responders before the extended
performance periods expires, the funds will be de-obligated from the Federal account,
unless additional extensions are approved by DHS/ODP. If such de-obligations occur,
the State would miss the opportunity to use the funds to enhance the State’s preparedness
for terrorist incidents.

2. Sub-grantee monitoring not adequate

SEMA did not adequately monitor sub-grantee activities. As a result, SEMA did not
know that some sub-grantees (1) had not fully expended advanced funds resulting in cash
on hand; (2) procured equipment that had not been approved by SEMA; (3) used some of
the approved equipment for purposes other than the purpose for which approval had been
granted; and, (4) had not assembled and distributed the response kits that were to be
provided to first responders.

    a. Advances resulted in cash on hand

SEMA had not obtained the required assurances from sub-grantees that the time elapsing
between the transfer and the disbursement of the funds would be minimized. SEMA
advanced the entire amount of the award to sub-grantees at the time SEMA approved the
sub-grantee’s award. However, for 12 of the 18 sub-grantees visited, a total of about
$1,148,000 was on hand even though the awards to these sub-grantees were made about
11 months earlier.

Title 28, Code of Federal Regulations, Section 66.21, states that reimbursement shall be
the preferred method unless the sub-grantee maintains and demonstrates the willingness
and ability to maintain procedures to minimize the time elapsing between the transfer of
funds and their disbursement by the sub-grantee.

Sub-grantee Agreements - SEMA received a signed agreement from each sub-grantee
prior to issuing a check for the full amount of the award. These agreements included a
date upon which the sub-grantee was to complete all purchases of equipment. However,
the period of time provided in the agreement allowed the sub-grantee to hold the money
for several months. In some cases, the period the money could be held extended to a full
year. The agreement dates were based upon the DHS/ODP-approved performance
periods at the time the agreements were finalized. The agreements stated that if
DHS/ODP extensions were approved, the sub-grantee could request, and the State could
authorize, the sub-grantee additional time to complete the purchases authorized under the
agreement.

We do not believe the period of time allowed in the agreements constituted a
minimization of the time elapsing between the transfer and the disbursement of the funds


                                                                                       12
DHS                                                  Office for Domestic Preparedness
                                                                      State of Indiana


in accordance with the Federal regulations. In this regard, SEMA had not enforced the
requirement that the sub-grantee complete all purchases of equipment within the agreed
upon time frame. Our review of available documentation did not indicate that the sub-
grantees requested extensions to the dates in the original Agreements.

Cash on Hand - As of the date of our visits in January and February 2005, 12 of 18
sub-grantees had FY 2002 and FY 2003 grant program cash on hand totaling $1,148,000,
even though the awards had been made about 11 months earlier. This equated to about
18 percent of the $6,436,170 awarded to the 12 sub-grantees. Appendix C to this report
provides a detailed schedule identifying the sub-grantees and the amounts of cash on
hand.

According to SEMA officials, SEMA has changed its disbursement procedure. The
SEMA officials said that, starting in December 2004, the new procedures require
reimbursements rather than advances to sub-grantees. Documentation to support the new
procedures was not available. SEMA also claimed that it had increased its efforts to
obtain receipts and to check the receipts against the approved equipment worksheets.

    b. Unapproved equipment was procured

Some sub-grantees purchased equipment that was not approved by SEMA. Four of the
18 sub-grantees visited purchased equipment, totaling about $260,718, which was not
included on approved Equipment Budget Detail Worksheets. According to DHS/ODP
program guidelines and SEMA’s Sub-Agreements, SEMA had to specifically approve all
equipment procurements. As a result, we consider the $260,718 expended for
unapproved equipment to be a questioned cost.

According to the program guidelines issued by DHS/ODP, grant applicants were required
to submit very specific Equipment Budget Detail Worksheets with their applications for
DHS/ODP’s review and approval. These worksheets were to include the equipment to be
purchased from the authorized equipment lists, the number of items to be purchased, the
estimated cost, and the response disciplines that would receive the equipment. Indiana’s
First Responder Equipment Sub-Grant Agreements with sub-grantees required the sub-
grantees to only purchase equipment listed on Indiana’s approved equipment lists and in
the quantity specified on the approved Equipment Budget Detail Worksheets. If a local
entity wanted to purchase equipment not identified on the approved worksheet(s), the
local entity was required to submit a revised worksheet for approval prior to making a
purchase of that equipment.

SEMA was not aware that sub-grantees were procuring unauthorized equipment because
the sub-grantees did not always provide SEMA the purchase receipts.




                                                                                     13
DHS                                                           Office for Domestic Preparedness
                                                                               State of Indiana


    c. Equipment not used as intended

Two of the 18 sub-grantees visited used equipment for purposes not approved by SEMA.
Equipment, approved for specialized purposes was being used for general purposes.
Because the purchased equipment was not used as intended, we consider the $696,940
expended on the equipment to be a questioned cost.

Financial assistance was provided for the purchase of specialized equipment to enhance
the capability of state and local agencies to prevent and respond to terrorist incidents.
DHS/ODP program guidelines state that expenditures for equipment such as general-use
vehicles, general-use computers, and related equipment were not allowable. According
to the State’s approved equipment list, computer systems designated for use in an
integrated system to assist with detection and communications efforts must be linked with
integrated software packages designed for chemical and/or biological agent detection and
communication purposes.

    d. Distribution of counter-terrorist response kits lagging

Starting in December 2002, SEMA purchased about $4.5 million of equipment for
counter-terrorist response kits. The State directed the suppliers to ship the equipment
directly to county emergency management agencies. The county agencies were to
assemble and distribute the kits to first responders. However, as of January 2005, very
few of the kits had been assembled or distributed to first responders. Most of the
equipment was stored in the containers in which the equipment had been shipped. The
equipment was stored in vaults, storage rooms, and trailers.

Indiana pursued a multi-phased State Emergency Management Terrorism Equipment
Program. The State’s initial homeland security procurement strategy was to have the
State centrally procure first responder equipment and have that equipment delivered
directly to counties and first responders. SEMA chose to begin the equipment purchasing
process by purchasing personal protection equipment for eligible first responders who
would take a defensive position should a terrorist incident occur within their
communities. The defensive role responsibilities included securing the perimeter and
helping guide evacuees to safety. From the FY 1999 through FY 2002 homeland security
grant programs, SEMA disbursed about $1.8 million4 to suppliers for the procurement of
first responder kit equipment. The equipment was shipped directly to first responders
throughout the State.

According to a SEMA official, the State’s central procurement process was slow and
cumbersome. The State’s Department of Administration had to be educated on the
purchase of first responder equipment and equipment specifications had to be drafted.
The purchase and delivery of personal protection equipment had taken over two years.

4
 The $1.8 million consisted of over $853,000 from the FY 1999 grant funds, about $873,000 from the
FYs 2000-2001 grant funds, and over $60,000 from the FY 2002 grant funds.


                                                                                                     14
DHS                                                    Office for Domestic Preparedness
                                                                        State of Indiana


3. Progress reporting

SEMA did not submit the required semi-annual Categorical Assistance Progress Reports
(CAPRs) for the periods ending June 30, 2004 or December 31, 2004. Also, although
prior period reports were submitted, the reports submitted did not (1) describe the State’s
progress in achieving the overall goals and objectives, or (2) explain how DHS/ODP
resources were contributing to the attainment of the goals and objectives. These two
requirements were included in the DHS/ODP’s program guidelines for the FY 2003 State
Homeland Security Grant Program.

For the FY 2002 and FY 2003 grant programs, the grantees were required to submit
CAPRs for the life of the awards 30 days after the end of the designated reporting
periods, which were June 30 and December 31. Starting with the FY 2003 grants, the
progress reports were required to provide an update on the state’s allocations for
equipment, exercises, training, planning, and administrative activities that occurred
during the designated reporting period. In addition, the progress reports were to provide
DHS/ODP information on the State’s progress in achieving the overall goals and
objectives identified in the state homeland security strategy and how DHS/ODP’s
resources were contributing to the attainment of the goals and objectives.

SEMA did not submit the required semi-annual CAPRs for the periods ending June 30,
2004 or December 31, 2004. Although the reports for prior periods were submitted, the
reports did not include all of the information required by DHS/ODP. The reports did not
(1) describe the State’s progress in achieving the overall goals and objectives, or
(2) explain how DHS/ODP resources were contributing to the attainment of the goals and
objectives included in the approved strategic plan.

According to SEMA officials, significant changes in executive-level staff and the
availability of staff within SEMA during calendar year 2004 contributed to the agency’s
failure to submit the required reports. SEMA officials also said the reports submitted did
not include information concerning the achievement of the State’s goals and objectives
because these goals and objectives had not been evaluated. In addition, the State’s
emphasis on the procurement of equipment and awarding funds to all counties
overshadowed efforts to support the training and exercise activities that were part of the
strategic plan’s evaluation process.

Even though the semi-annual progress reports are an important source of essential
information for DHS/ODP to perform its oversight responsibilities, DHS/ODP had not
enforced the semi-annual progress reporting requirements.

      Conclusions

Indiana did not aggressively manage the FY 2002 and FY 2003 first responder grant
programs. A more aggressive approach to identifying the needs of the State and working
with the sub-grantees would have resulted in SEMA drawing down funds from the


                                                                                         15
DHS                                                   Office for Domestic Preparedness
                                                                       State of Indiana


Federal account and awarding the funds to sub-grantees in a timely manner. Indiana
needs to consider the impact of executive-level changes in SEMA’s management team
and the availability of staff in conjunction with the workload and compliance
requirements that are inherent in being the recipient of Federal grants.

In addition, SEMA needed to be more active in monitoring the activities of the sub-
grantees. With improved monitoring, SEMA would have known (1) the status of sub-
grantee expenditures of advanced funds, (2) that some sub-grantees were procuring
equipment that had not been approved by SEMA, (3) that some of the approved
equipment was not being used for the purposes intended, and (4) that, in almost every
case, the sub-grantees had not assembled and distributed the response kits that were to be
provided for first responders.

Improved monitoring would also have assisted SEMA with the Federal requirements for
the submission of semi-annual progress reports, especially with respect to the inclusion in
the reports of the status of the State’s achievement of the approved goals and objectives
of the strategic plan.

       Recommendations

We recommend that the Director, DHS/ODP, require the Executive Director, SEMA, to:

   1. Improve grant program management by:

           a. Expediting SEMA’s awards of first responder grant funds to sub-grantees,

           b. Aggressively monitoring sub-grantee activities, and

           c. Complying with the Federal progress reporting requirements.

   2. Develop and implement procedures for monitoring sub-grantee activities. The
      procedures should require:

           a. Kickoff meetings with the sub-grantee when the award is made. The
              meetings should inform the sub-grantee of the requirements associated
              with being a sub-grantee.

           b. Periodic visits by SEMA to review the status of sub-grantee activities and
              the level of preparedness that has been achieved.

           c. Sub-grantee submissions of invoices and other supporting documentation
              to support that the sub-grantee performed activities (procurement of
              equipment, training, exercises, etc.) consistent with the approvals received
              from SEMA and the Department of Homeland Security.



                                                                                        16
DHS                                                     Office for Domestic Preparedness
                                                                         State of Indiana


           d. Closeout meetings with SEMA and the sub-grantees to reconcile the
              awards with the expenditures, as well as to evaluate the progress achieved
              toward the goals and objectives of the programs.

       3. Disallow the $260,718 used by sub-grantees to procure unapproved
          equipment, and disallow the equipment used by the sub-grantees for
          unapproved purposes costing $696,940.

       Management’s Response

DHS officials concurred that improvements were needed in Indiana’s grant program
management (Recommendations B.1 and B.2). However, the DHS officials stated that
the resolution of Recommendation B.3 is under review by SLGCP pending further
documentation by the IDHS.

With respect to the need to expedite awards to sub-grantees, the officials stated that it is
important to note that all funds were obligated with more than 75% of the SHSGP
FY 2002, FY 2003, and FY 2003 supplemental grant awards having been drawn down.

According to DHS officials, the Indiana emergency management agency also
experienced delays in drawing down grant award funds due to tardiness on the part of
local jurisdictions to develop spending plans, identify equipment, training and exercise
needs; state and local regulations related to bids and purchases; and equipment shortages
from vendors. Also problematic, has been the constant turnover of senior management
teams and operational staff from the fall of 2003 through January 2005 with both SEMA
and the Counter-Terrorism and Security Council having been recently reorganized into
one department, the Indiana Department of Homeland Security.

With respect to the development and implementation of procedures for monitoring sub-
grantee activities, the DHS officials stated that IDHS’ senior management team should
determine the exact approach regarding kickoff and closeout meetings, as well as the
format and frequency of monitoring visits by IDHS personnel. The officials said the
State’s monitoring of sub-grantee activities was hampered due to budgetary restrictions
regarding personnel (both full-time hires and contractors) placed on the Indiana
emergency management agency and the constant turnover of senior management and
operational staff. Despite reminders from ODP, the progress reporting requirement also
suffered lapses due to constant changes in personnel at the Indiana emergency
management agency.

The DHS officials said the issue of lapsing progress reports has already been addressed
with IDHS and the overdue progress reports have been submitted to SLGCP. According
to the DHS officials, SLGCP will strongly encourage IDHS to make their personnel
available to participate in the new technical assistance program entitled, “Enhancing
Grant Management Capacities of State Administrative Agencies.”



                                                                                           17
DHS                                                    Office for Domestic Preparedness
                                                                        State of Indiana


The DHS officials stated that the Preparedness Officer responsible for Indiana will
address the necessary programming issues and the associated expenditure of funds.
Further, approvals of any grant extensions may be conditioned upon successful progress
in expediting the expenditures of first responder FY 2002, FY 2003, and FY 2003
supplemental grant awards, as well as the monitoring of programming and fiscal
activities of sub-grantees. The decision regarding grant extensions will be made no later
than 30 days prior to the expiration of the project period for the respective grant awards.
The Preparedness Officer will also:

   •   Help IDHS to address improved monitoring through enhancing administrative and
       planning capabilities at the regional level, and

   •   Work with IDHS and the Homeland Security Preparedness Technical Assistance
       program to schedule a delivery date for the technical assistance program:
       “Enhancing Grant Management Capacities of State Administrative Agencies.”

SLGCP will work with IDHS to formulate an improved sub-grantee monitoring plan,
including proper programming and fiscal administration, on a reimbursement basis, in
order to improve the State’s oversight of sub-grantees. Where practical (given state and
local budgetary constraints), SLGCP will identify funding for local jurisdictions to improve
the local jurisdictions capacity to assist IDHS with the administrative and program
monitoring requirements.

       Auditor’s Additional Comments

DHS’s concurrence with Recommendations B.1 and B.2 is adequate to resolve the
conditions cited. We commend DHS for the actions outlined for SLGCP, specifically the
responsible Preparedness Officer, to increase SLGCP’s oversight of Indiana’s grant
program management activities. However, the finding cannot be closed until
documentation is provided to the OIG that supports that the State has developed and
implemented procedures for improving its sub-grantee monitoring activities.

Because the resolution of Recommendation B.3 is under review by SLGCP pending
further documentation from IDHS, we consider this Recommendation to be unresolved.

C. Funds Disbursed Without Adequate Supporting Documentation
The State awarded critical infrastructure protection grant funds totaling $278,857 to three
police departments for overtime costs without adequate supporting documentation. As a
result, the State could not be certain that the overtime costs claimed were incurred while
protecting critical infrastructures as intended through the grant program. We consider the
award of the $278,857 to the three police departments to be a questioned cost.




                                                                                         18
DHS                                                           Office for Domestic Preparedness
                                                                               State of Indiana


The FY 2003 SHSGP-II grant program included funding for critical infrastructure
protection. The funding was provided to pay for costs associated with increased security
measures required to augment security at critical infrastructure sites during the period of
hostilities with Iraq (March 17, 2003 through April 16, 2003) and future periods of
heightened threat. DHS/ODP told the states and local governments to generally consider
critical infrastructure to include any system or asset that if attacked would result in
catastrophic loss of life and/or economic loss.

According to a CTASC5 official, critical infrastructure protection funds reimbursed local
first responders for claimed overtime and equipment costs based upon summary listings
provided by the first responders showing critical infrastructures/locations with “daily cost
per site” amounts. The official stated that in accordance with the grant award letter sent
to the first responders, a mayor or county commissioner was to return to CTASC a signed
certification that the first responder had records supporting the claim and would maintain
those records to support the claim under general accounting standards for auditing
government grants. Based upon this certification requirement, CTASC did not require
the first responders to submit documentation supporting their actual claims for
reimbursement of overtime costs. CTASC directed the first responders to retain the
required documentation.

As of September 30, 2004, CTASC approved and SEMA disbursed about $1.8 million of
the $4 million critical infrastructure protection funds allocated to Indiana.

        Conclusions

CTASC should not have awarded critical infrastructure protection funds without adequate
documented support for the overtime costs claimed by the first responders. As a result,
the State cannot be certain that the costs claimed were for overtime incurred by the police
departments while protecting critical infrastructures as intended by the grant program.
As evidenced by our visits to selected first responders, certifications that the local entity
had maintained records to support an overtime claim did not ensure that the costs claimed
were supported.

We identified $278,857 of claimed overtime costs totaling $1.8 million that was not
supported with adequate documentation. Thus, we consider that amount to be a
questioned cost. Our review did not cover the entire $1.8 million in claims. Therefore,
SEMA, who was assigned responsibility for managing critical infrastructure protection
funds, should determine if adequate documentation existed for the other reimbursements
of about $1.5 million.


5
  CTASC – The State’s Counter-Terrorism and Security Council was responsible for the management of
critical infrastructure protection funds when the reimbursements were made. SEMA subsequently inherited
the responsibility from CTASC.



                                                                                                    19
DHS                                                        Office for Domestic Preparedness
                                                                            State of Indiana


        Recommendations

We recommend that the Director, DHS/ODP require the Executive Director, SEMA to:

        1. Disallow the $278,857 disbursed to police departments and require that these
           funds be returned to SEMA,

        2. Determine if the remaining $1.5 million disbursed to other State and local first
           responders was adequately supported with documentation,

        3. Disallow and recover any of the $1.5 million that was not adequately
           supported, and

        4. Develop and implement appropriate procedures for assuring that all future
           critical infrastructure protection disbursements for overtime claims are
           supported with adequate documentation.

        Management’s Response

According to DHS officials, police department expenditures for overtime cost associated
with critical infrastructure protection are under review by SLGCP pending further
documentation by the IDHS (Recommendation C.1). The DHS official said IDHS will
require the police departments to submit the required documentation to support the
authorization of expenditures of funding for overtime costs related to critical
infrastructure protection. Failure to do so may result in the de-obligation of funding by
IDHS for the police departments.

DHS officials also stated that SLGCP will work with IDHS to formulate an improved
sub-grantee monitoring plan, including proper fiscal administration to ensure
reimbursement of critical infrastructure protection overtime costs were properly
authorized. (Recommendations C.3 and C.46) Through the successful implementation of
this plan, IDHS will verify that sub-grantees have the required documentation required
for the authorization of expenditures of funding for overtime cost related to critical
infrastructure protection. The Preparedness Officer will also help IDHS improve its
sub-grantee monitoring through enhancing administrative and planning capabilities at the
regional level and local jurisdictional level.




6Recommendations C.3 and C.4 were referred to as “sub-points A and B” in the response received from
DHS.



                                                                                                20
DHS                                                  Office for Domestic Preparedness
                                                                      State of Indiana


        Auditor’s Additional Comments

The actions being taken by DHS and the State of Indiana are adequate to resolve the
conditions cited. However, the finding cannot be closed until:

    •   The reviews of the disbursements to police departments are completed and all
        unsupported disbursements are disallowed and recovered;

    •   The remaining disbursements for overtime claims, totaling $1.5 million, are
        reviewed and all unsupported disbursements are disallowed and recovered; and,

    •   Documentation is provided to the OIG supporting that Indiana has developed and
        implemented appropriate procedures for assuring that all future disbursements for
        overtime claims are supported with adequate documentation.




                                                                                       21
DHS            Office for Domestic Preparedness
                                State of Indiana




      APPENDICES




                                             22
DHS                                                    Office for Domestic Preparedness
                                                                        State of Indiana

                                                                               Appendix A


                      Objectives, Scope, and Methodology

The objective of the audit was to determine whether the State of Indiana effectively and
efficiently implemented the first responder grant programs, achieved the goals of the programs,
and spent the funds awarded according to grant requirements. The goal of the audit was to
identify problems and solutions that would help the State of Indiana prepare for and respond to
terrorist attacks.

The Department of Homeland Security, Office of Inspector General (DHS/OIG) is reporting the
results of the audit to appropriate DHS officials.

The scope of the audit included the following three grant programs. These programs are
described in the Background section of this report.

   •   FY 2002 State Domestic Preparedness Program (SDPP)

   •   FY 2003 State Homeland Security Grant program -- Part I (SHSGP-I)

   •   FY 2003 State Homeland Security Grant program – Part II (SHSGP-II):

The audit methodology included work at DHS/ODP Headquarters, the State of Indiana’s
offices responsible for the management of the grants, and various sub-grantee locations.
The sub-grantee locations visited included three counties, six cities, and nine first
responders. These sub-grantees were awarded about $7.2 million by SEMA under the
above three grant programs. The purposes of the visits were to obtain an understanding
of the three grant programs and to assess how well the programs were being managed.
Our audit considered DHS/ODP and State policies and procedures, as well as the
applicable Federal requirements. We reviewed documentation received from DHS/ODP,
as well as from the State offices and the sub-grantees. In each of the locations visited, we
interviewed responsible officials, reviewed documentation supporting the State and sub-
grantees management of the awarded grant funds, and physically inspected some of the
equipment procured with the grant funds.

We reviewed reports from prior audits. We also coordinated our work with officials from
the Government Accountability Office and the House Appropriations Committee’s
Survey and Investigative Staff. Both of these offices were, at that time, involved in
reviews of the first responder grant programs.

The audit of the State of Indiana was conducted between November 2004 and April 2005. It
was conducted in accordance with Government Auditing Standards as prescribed by the
Comptroller General of the United States (Yellow Book-2003 Revision). Although this audit
included a review of costs claimed, we did not perform a financial audit of those costs.


                                                                                         23
DHS                                                  Office for Domestic Preparedness
                                                                      State of Indiana

                                                                           Appendix A

Accordingly, we do not express an opinion on Indiana’s financial statements or the funds
claimed in the Financial Status Reports submitted to DHS/ODP. If we had performed
additional procedures or conducted an audit of the financial statements in accordance with
generally accepted auditing standards, other matters might have come to our attention that
would have been reported. This report relates only to the programs specified. The report does
not extend to any financial statements of the State of Indiana.




                                                                                      24
DHS                                       Office for Domestic Preparedness
                                                           State of Indiana

                                                               Appendix B


                        State of Indiana
                          Schedule Of
                        Questioned Costs

      Finding                Description               Amount
      B. 2. b.   Unapproved equipment procured        $   260,718
      B. 2. c.   Equipment not used as intended           696,940
         C.      Unsupported reimbursements               278,857
                       Total                          $ 1,236,515




                                                                        25
         DHS                                                                         Office for Domestic Preparedness
                                                                                                      State of Indiana

                                                                                                                        Appendix C


                                                       State of Indiana
                                                     Sub-grantees Visited
                                                   Schedule of Cash on Hand

                                            2002                   2003 Part 1                  2003 Part II
         Sub-grantees Visited                                                                                                               Total
                                                                                                                          Total
            that had Cash                                                                                                                  Cash on
                                    Check        Cash          Check         Cash           Check         Cash           Awarded
               on Hand                                                                                                                      Hand
                                   Amount       on Hand       Amount        on Hand        Amount        on Hand

        Allen County
  1       Bomb Team                                              $45,000         $4,130                                    $45,000            $4,130

  2       HazMat Team               $10,000          $155        $50,000      $13,085                                      $60,000           $13,240
  3     Blackford County                                                                      $15,604             $2       $15,604                $2
  4     Lake County                                             $373,114     (See Note)    $1,405,463     (See Note)     $1,778,577         $391,490
        Marion County
  5       Marion Co. #1                                         $662,549      $93,087      $2,182,278     $255,880       $2,844,827         $348,967
  5       Marion Co. #2                                                                      $308,320      $32,112        $308,320           $32,112
  6       Bomb Team                $159,390        $24,384                                                                $159,390           $24,384
  7      HazMat Team                $10,000        $10,000       $50,000      $50,000                                      $60,000           $60,000
        Montgomery County
  8       Montgomery Co. #1                                                                   $14,664           $587       $14,664              $587
  8       Montgomery Co. #2                                                                  $121,000          $1,891     $121,000            $1,891
        Vanderburgh County
  9       Vanderburgh Co #1                                     $132,290         $1,217      $435,814      $49,734        $568,104           $50,951
  9       Vanderburgh Co #2                                                                  $123,140     $123,140        $123,140          $123,140
  10      City of Evansville                                                                  $87,544      $87,544         $87,544           $87,544
  11      Bomb Team                $200,000          $542                                                                 $200,000              $542
        Vigo County/ City of Terre Haute
  12      HazMat Team                                            $50,000         $9,074                                    $50,000            $9,074

        Totals                     $379,390        $35,081    $1,362,953     $170,593      $4,693,827     $550,890       $6,436,170        $1,148,054



        Lake County managed the 2003 Part I and Part II funds as one award. County management could not provide how much of the
Note:
        amount on hand was from Part I versus Part II. The total amount on hand was $391,490.




                                                                                                                                      26
DHS                Office for Domestic Preparedness
                                    State of Indiana




      MANAGEMENT RESPONSE
            TO THE
         DRAFT REPORT




                                                 27
DHS   Office for Domestic Preparedness
                       State of Indiana




                                          28
DHS                                                    Office for Domestic Preparedness
                                                                        State of Indiana

                                                                        Office of the Secretary
                                                                        Office of State and Local Government
                                                                        Coordination & Preparedness
                                                                        Washington, DC 20531




                 SLGCP7 Response to the Inspector General Report on the
                     Audit of the State of Indiana’s Management of the
            Office for Domestic Preparedness, State Homeland Security Grants


RECOMMENDATION A.1 – Document and implement procedures for evaluating the State’s
progress in achieving the plan’s goals and objectives, and either redirect spending to be in line with
the plan or revise the plan based upon the progress achieved.

Response: SLGCP concurs with the principle that federal funding should adhere to various strategic
and operational plans. However, it is important to note the SHSG FY02, FY03, and FY03
supplemental grant awards were limited primarily to equipment grant awards to specifically address
CBRNE hazards (i.e., chemical, biological, radiological/nuclear, and explosive) following the events
of 9/11. These grant awards were limited by their funding amount and others restrictions (i.e., FY02
prohibited training expenditures), and were not intended at that time to fully implement, in its
entirely, a state–wide homeland security strategic plan. The terms and conditions of these grant
awards required that all equipment purchases were restricted to the approved CBRNE authorized
equipment list. Such allowable expenses therefore, by definition, satisfied the requirement of these
grants awards to enhance the preparedness and response capabilities of first responders to address a
CBRNE incident. Additionally, to ensure the appropriateness of such purchases, the State
Administrative Agency (SAA) for Indiana was required to submit an overall spending budget as well
as equipment detail budget worksheets to ODP for review and approval.

It is also important to note that this plan was submitted one year prior to the creation of DHS under
the leadership of Governor Frank O’Bannon. Governor O’Bannon’s administration came to an
untimely end with his death, while in office, in September 2003. Since that time, there have been
two succeeding gubernatorial administrations, Governor Joseph Kernan (who was subsequently
defeated in the fall 2004 election), and the current governor, Mitch Daniels. In each instance, a new
management team was installed at the State Emergency Management Agency (SEMA) and the
Indiana Counter Terrorism and Security Council (CTASC). This has resulted in three different
senior management teams and operational staff from the fall of 2003 through January 2005.

7
    Op.cit., Page 4


                                                                                                          29
DHS                                                 Office for Domestic Preparedness
                                                                     State of Indiana

Presently, both SEMA and the CTASC have been reorganized into one department, the Indiana
Department of Homeland Security (IDHS).

Action Taken: The Indiana Domestic Preparedness Strategy: Three-Year, dated February 15,
2002, has already been superseded by the 2004 Indiana State Homeland Security Strategy (approved
by ODP on 2/18/2004) and the Indianapolis Urban Area Homeland Security Strategy (approved by
ODP on 3/22/04). Recognizing that expenditures must more closely follow an approved
preparedness strategy on a state and local level, ODP developed a methodology to establish a web-
based tracking system, which was instituted in 2004. The Biannual Strategy Implementation
Reports (BSIR), along with Initial Strategy Implementation Plans (ISIPs), are designed to track
expenditures with identified goals or objectives within the 2004 Indiana State Homeland Security
Strategy and Indianapolis Urban Area Homeland Security Strategy. Both strategies are presently in
the process of being updated to align them with the seven national priorities in the National
Preparedness Goal and National Preparedness Guidance. SLGCP will ensure that all reports are
submitted in a timely manner, and reviewed for corrections to make certain that expenditures are
strategy driven.

Milestones: Both the 2004 Indiana State Homeland Security Strategy and Indianapolis Urban Area
Homeland Security Strategy are required to be updated and resubmitted by September 30, 2005. The
most recent Biannual Strategy Implementation Report (BSIR) was submitted to ODP on July 30,
2005, and is under review.

RECOMMENDATION A.2 – Review the state’s plans and justifications for first responder grants
subsequent to FY 2003 to determine if adjustments are necessary considering the results of the
state’s evaluation of the progress made in achieving the goals and objectives included in the
February 2002 strategic plan.

Response: Again, SLGCP concurs with the principle that federal funding should adhere to various
strategic and operational plans. The Indiana Domestic Preparedness Strategy: Three-Year, dated
February 15, 2002, has already been superseded by the 2004 Indiana State Homeland Security
Strategy (approved by ODP on 2/18/2004) and the Indianapolis Urban Area Homeland Security
Strategy (approved by ODP on 3/22/2004). Subsequent SLGCP grants will have a direct nexus to a
stated goal or objective within the updated and approved state homeland and urban areas security
strategies

Actions Taken: See response to Recommendation A.1.

Milestones: See response to Recommendation A.1.

RECOMMENDATION B.1 – Improve grant program management by:

   a. Expediting SEMA’s awards of first responder grant funds to sub-grantees;

   b. Aggressively monitoring sub-grantee activities; and

   c. Complying with the federal progress reporting requirements.


                                                                                               30
DHS                                                   Office for Domestic Preparedness
                                                                       State of Indiana


Response: SLGCP concurs with this recommendation. However, it is important to note that all
funds were obligated with more than 75% of the SHSGP FY02, FY03, and FY03 supplemental grant
awards having been drawn down. The Indiana SAA has also experienced delays in drawing down
grant award funds due to tardiness on the part of local jurisdictions to develop spending plans,
identify equipment, training and exercise needs; state and local regulations related to bids and
purchases; and equipment shortages from vendors. Also problematic, has been the constant turnover
of senior management teams and operational staff from the fall of 2003 through January 2005 with
both SEMA and the CTASC having been recently reorganized into one department, the Indiana
Department of Homeland Security (IDHS). The monitoring of sub-grantee activities was hampered
due to budgetary restrictions regarding personnel (both full-time hires and contractors) placed on the
Indiana SAA. In addition, the history of three succeeding governors resulting in the constant
turnover of senior management and operational staff has hindered the implementation of previous
plans to improve oversight and field monitoring of sub-grantees. Despite reminders from ODP, the
progress reporting requirement suffered lapses due to constant changes in personnel at the Indiana
SAA.

Actions Taken: DHS officials stated that approvals of any grant extensions may be conditioned
upon successful progress in expediting the expenditures of SHSG FY02, FY03, and FY03
supplemental grant awards. SLGCP will work with IDHS to formulate an improved sub-grantee
monitoring plan, including proper programming and fiscal administration, on a reimbursement basis,
in order to improve programming oversight for sub-grantees. Where practical (given state and local
budgetary constraints), SLGCP will identify funding for local jurisdictions to improve the local
jurisdictions capacity to assist IDHS with the administrative and program monitoring requirements.
The Preparedness Officer will also help IDHS to address improved monitoring through enhancing
administrative and planning capabilities at the regional level. Further approvals of any grant
extensions may be conditioned upon IDHS progress in improving monitoring of SHSG FY02, FY
2003, and FY 2003 supplemental grant awards to sub-grantees.

According to DHS officials, the issue of lapsing progress reports has already been addressed with
IDHS and the overdue progress reports have been submitted to SLGCP. Additionally, SLGCP will
strongly encourage IDHS to make their personnel available to participate in the new technical
assistance program entitled, “Enhancing Grant Management Capacities of State Administrative
Agencies.”

Milestones: When necessary, SLGCP’s approval for grant extensions may be conditioned upon
IDHS’s progress in expediting the expenditure of SHSG FY02, FY03, and FY03 supplemental grant
awards as well as the monitoring of programming and fiscal activities of sub-grantees. The decision
regarding grant extensions will be made no later than 30 days prior to the expiration of the project
period for the respective grant awards. The Preparedness Officer will work with the IDHS
management team to ensure the development and implementation of an oversight monitoring plan
(including programming and fiscal administration), for sub-grantee award recipients. The
Preparedness Officer will also work with IDHS and the Homeland Security Preparedness Technical
Assistance program to schedule a delivery date for the technical assistance program: “Enhancing Grant
Management Capacities of State Administrative Agencies.”



                                                                                                   31
DHS                                                  Office for Domestic Preparedness
                                                                      State of Indiana

RECOMMENDATION B.2 – Develop and implement procedures for monitoring sub-grantee
activities. The procedures should require:

          a. Kickoff meetings with the sub-grantee when the award is made. The meetings should
             inform the sub-grantee of the requirements associated with being a sub-grantee.

          b. Periodic visits by SEMA to review the status of sub-grantee activities and the level of
             preparedness that has been achieved.

          c. Sub-grantee submissions of invoices and other supporting documentation to support
             that the sub-grantee performed activities (procurement of equipment, training,
             exercises, etc.) consistent with the approvals received from SEMA and the
             Department of Homeland Security.

          d. Closeout meetings with SEMA and the sub-grantees to reconcile the awards with the
             expenditures, as well as to evaluate the progress achieved toward the goals and
             objectives of the programs.

Response: We concur with the comments that IDHS needs to improve monitoring of sub-grantee
activities. However, the exact approach regarding kickoff and closeout meetings as well as the
format and frequency of monitoring visits by IDHS personnel should be determined by the senior
IDHS management team (see response to Recommendation B.1). The Indiana SAA has been aware
of the necessity to obtain fiscal documentation from sub-grantees to authorize draw downs of the
SHSG FY02, FY03, and FY03 supplemental grant awards on a reimbursement basis and has been
actively engaged to ensure that such proper fiscal documentation has been submitted.

Actions Taken: See response to Recommendation B.1

Milestones: See response to Recommendation B.1.

RECOMMENDATION B.3 – Disallow the $260,718 used by sub-grantees to procure unapproved
equipment, and disallow the equipment used by the sub-grantees for unapproved purposes costing
$696,940.

Response: The resolution of this recommendation is under review by SLGCP pending further
documentation by the IDHS. The $260,718 reflects amended equipment detail budget worksheets
by four sub-grantees that were not resubmitted for approved by the Indiana SAA or the Preparedness
Officer at SLGCP. A proper review will be undertaken by both IDHS and SLGCP to ensure that
such purchases are allowable and can be authorized under the SHSG FY02, FY03, and FY03
supplemental grant awards.

Actions Taken: IDHS will require that sub-grantees submit amended equipment detail budget
worksheets for review and approval by both the IDHS and SLGCP. After which, any purchased
items found not allowable may result in the deobligation of funding by IDHS.




                                                                                                 32
DHS                                                     Office for Domestic Preparedness
                                                                         State of Indiana

Milestones: IDHS will submit the required verification, as stated above, to the SLGCP
Preparedness Officer for review and approval. Also see response to Recommendation B.1.

RECOMMENDATIONS C.1 – Disallow the $278,857 disbursed to police departments and require
that these funds be returned to SEMA:

               A. Disallow and recover any of the $1.5 million that was not adequately supported
       the sub-grantee when the award was made (Recommendation C.3). DHS officials said that
       the determination of the adequacy of the supporting documentation for the remaining $1.5
       million in reimbursements (Recommendation C.2) would have to be completed before
       decisions on disallowing and recovering funds from sub-grantees can be made.

               B. Develop and implement appropriate procedures for assuring that all future critical
       infrastructure protection disbursements for overtime claims are supported with adequate
       documentation (Recommendation C.4).

Response: The status for this recommendation concerning the police department’s expenditures for
overtime cost associated with critical infrastructure protection is under review by SLGCP pending
further documentation by the IDHS. The Critical Infrastructure Protection Budget Detail
Worksheets for police departments were submitted, reviewed, and approved by both the Indiana
SAA and the SLGCP Preparedness Officer. However, time and attendance records for individual
police officers were not required to be submitted to SLGCP as part of the Critical Infrastructure
Protection Budget Detail Worksheets. Rather, the Indiana SAA has the responsibility to ensure that
proper time and attendance records are maintained by the sub-grantees (as well as other
documentation related to actual critical infrastructure protection activities) to verify justification of
expenditures of these funds. Regarding sub-points A and B, SLGCP will work with IDHS to
formulate an improved sub-grantee monitoring plan, including proper fiscal administration to ensure
reimbursement of critical infrastructure protection overtime costs were properly authorized.

Actions Taken: IDHS will require the police departments to submit the required documentation to
support the authorization of expenditures of funding for overtime costs related to critical
infrastructure protection. Failure to do so may result in the de-obligation of funding by IDHS for the
police departments. SLGCP will work with IDHS to formulate an improved sub-monitoring
activities plan. Through the successful implementation of this plan, IDHS will verify that sub-
grantees have the required documentation required for the authorization of expenditures of funding
for overtime cost related to critical infrastructure protection. The Preparedness Officer will also help
IDHS to address improved monitoring through enhancing administrative and planning capabilities at
the regional level and local jurisdictional level. Additionally, SLGCP will strongly encourage IDHS
to make available their personnel to participate in the new technical assistance program: “Enhancing
Grant Management Capacities of State Administrative Agencies.” See response to Recommendation
B.1.

Milestones: The Preparedness Officer will work with the IDHS management team to ensure the
development and implementation of an oversight monitoring plan (including programming and fiscal
administration), for sub-grantee award recipients. The IDHS monitoring plan for sub-grantees will
address adequacy of required documentation to justify overtime costs associated with critical


                                                                                                       33
DHS                                                 Office for Domestic Preparedness
                                                                     State of Indiana

infrastructure protection. When necessary, the determination of approval for grant extensions may
be conditioned upon IDHS’s progress in expediting the expenditures of SHSG FY02, FY03, and
FY03 supplemental grant awards and the monitoring of programming and fiscal activities of sub-
grantees. The decision to approve grant extensions will be made by SLGCP no later than 30 days
prior to the expiration of the project periods for the respective grant awards. The Preparedness
Officer will also work with the IDHS and the Homeland Security Preparedness Technical Assistance
Program to schedule a delivery date for the technical assistance program: “Enhancing Grant
Management Capacities of State Administrative Agencies.”




                                                                                              34
DHS                                             Office for Domestic Preparedness
                                                                 State of Indiana

                                                             Report Distribution


Department of Homeland Security

Secretary
Deputy Secretary
Executive Secretariat
Chief of Staff
General Counsel
Under Secretary, Management
Chief Financial Officer
Chief Information Officer
Assistant Secretary for Public Affairs
Assistant Secretary for Policy
Assistant Secretary for Legislative Affairs
Chief Security Officer
OIG Liaison

Office of Grants and Training

Acting Executive Director
Director, Office of Grant Operations
OIG Liaison

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner

Congress

Committee on Homeland Security and Governmental Affairs
United States Senate

Committee on Homeland Security
United States House of Representatives




                                                                              35
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
